           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



SCOTT COUNTY COMMUNITY SERVICES
  DEPARTMENT, A FEE-FOR-SERVICE
  REPRESENTATIVE PAYEE FOR THE
 SOCIAL SECURITY ADMINISTRATION

     June 2006   A-07-06-16040




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                               SOCIAL SECURITY

MEMORANDUM

Date:   June 5, 2006                                                                            Refer To:

To:     Michael W. Grochowski
        Regional Commissioner
         Kansas City

From:   Inspector General

Subject: Scott County Community Services Department, A Fee-for-Service Representative
        Payee for the Social Security Administration (A-07-06-16040)


        OBJECTIVE
        Our objectives were to determine whether the Scott County Community Services
        Department (CSD) (1) had effective safeguards over the receipt and disbursement of
        Social Security benefits and (2) ensured Social Security benefits were used and
        accounted for in accordance with the Social Security Administration’s (SSA) policies
        and procedures.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted SSA the authority
        to appoint representative payees to receive and manage these beneficiaries’ 1
        payments. 2 A representative payee may be an individual or an organization. SSA
        selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI)
        beneficiaries or Supplemental Security Income (SSI) recipients when representative
        payments would serve the individuals’ interests. Representative payees are
        responsible for managing benefits 3 in the best interest of the beneficiary. Refer to
        Appendix B for additional Representative Payee responsibilities.



        1
          We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
        recipients.
        2
            42 U.S.C. §§ 405(j), 1382(a)(2).
        3
            We use the term “benefits” generically in this report to refer to both OASDI benefits and SSI payments.
Page 2 - Michael W. Grochowski

CSD is a county government agency that has operated for more than 20 years as a fee-
for-service organizational representative payee for individuals who received payments
under SSA’s OASDI and SSI programs. In 2005, a former CSD employee was
convicted of diverting SSA monies from beneficiaries due to an improper segregation of
duties relating to the disbursement of benefits. As a result, SSA’s Kansas City Regional
Office requested that we perform an audit of CSD. Refer to Appendix C for the Scope
and Methodology.

RESULTS OF REVIEW
We found CSD generally had adequate internal controls for the receipt and
disbursement of Social Security benefits. Particularly, CSD had adequate segregation
of duties, proper authorization for transactions, and adequate physical safeguards over
assets and records. 4 However, we found two areas where CSD needs to improve its
procedures to ensure Social Security benefits are used and accounted for in
accordance with SSA’s policies and procedures. Specifically, CSD needs to:

      •   Maintain adequate documentation to support expenses, and

      •   Properly title the bank account used to hold beneficiary funds.

BENEFICIARIES’ EXPENSES LACKED SUPPORTING DOCUMENTATION

CSD did not maintain supporting documentation (receipts) for the disbursement of
approximately $88,000 in SSA benefits. 5 Of this amount, approximately $72,000 was
disbursed directly to beneficiaries for personal allowances and personal needs. The
remaining $16,000 was paid to vendors or individuals other than the beneficiary for
personal needs items such as utilities, clothing, and food.

SSA requires representative payees to keep accurate and complete records to show the
amount of benefits received and how the money was used. 6 Supporting documentation
for beneficiary expenses was lacking primarily because CSD did not require the
collection or retention of receipts for personal allowances or for most personal needs as
the following discusses.




4
  Because of the employee theft, CSD revised its benefit disbursement procedures to include separation
of approval, processing, and reconciling procedures. In addition, CSD installed a new software program
for its payee program that contains security features that allow CSD to limit user functions based on
employee job descriptions.
5
    CSD received $266,346 in benefits for the 50 beneficiaries from September 1, 2004 to August 31, 2005.
6
    20 C.F.R. §§ 404.2065 and 416.665.
Page 3 - Michael W. Grochowski

Personal Allowances

A personal allowance is money provided directly to the beneficiary for food and personal
items. To determine the amount and frequency of personal allowances for beneficiaries
that do not reside in nursing home facilities, CSD meets with the beneficiaries to
establish a budget. During this meeting, CSD ensures the beneficiaries’ shelter needs
are met then it establishes the amount, purpose, and frequency of personal allowance
checks. 7

During our audit period, CSD disbursed approximately $59,000 in personal allowance
checks. Of this amount, approximately $54,000 was disbursed directly to beneficiaries
while approximately $5,000 was disbursed to nursing homes on behalf of the
beneficiaries. However, CSD did not require the beneficiaries or nursing home facilities
to provide receipts to show how the personal allowance money was spent. Therefore,
beneficiaries and nursing homes were able to use the funds at their own discretion. In
fact, we found that 9 of the 50 beneficiaries included in our review received 40 percent
or more of their benefits in the form of personal allowances as illustrated in Table 1.

                                          Table 1
                         Benefits Disbursed as Personal Allowances
                      Percent of Benefits     Number of        Benefits
                          Disbursed          Beneficiaries    Disbursed
                                      8
                        Less than 30%             34           $25,639
                          30% to 40%               7            14,257
                         40% or more               9            18,701
                             Total                50           $58,597

SSA deemed the beneficiaries under CSD’s care incapable of managing or directing the
management of their funds. However, CSD released a significant portion of benefits to
some beneficiaries without requiring documentation of how the money was spent. CSD
stated these funds were released to beneficiaries to provide a sense of financial
independence and it hoped the beneficiaries would use the funds in their best interests.
Although it is not against SSA policy to promote financial independence, we believe
CSD’s insufficient oversight of the use of personal allowances places the funds at risk
for misuse. In addition, without evidence to show how personal allowances are used,
CSD is not performing one of its primary responsibilities of ensuring beneficiaries’ needs
are met and benefits are used in the best interest of the beneficiary.



7
  Most beneficiaries receive a personal allowance check monthly, bi-monthly, weekly, or even daily
depending on the beneficiary and pick up their checks at the CSD office. Beneficiaries are required to
sign the check stub to acknowledge receipt of their check. For the individuals residing in a nursing home
facility, CSD sends a minimum of $30 monthly for personal allowances to the nursing homes on behalf of
the beneficiaries.
8
    Nursing homes received personal allowances totaling $4,715 on behalf of 10 of these beneficiaries.
Page 4 - Michael W. Grochowski

Personal Needs

Personal needs monies are requested by the beneficiary for expenses above and
beyond the amount received as a personal allowance. 9 CSD requires beneficiaries to
request personal needs money in person. Also, the beneficiaries must complete a form
that requires an explanation of the intended use of the money and their signature.
Beneficiaries requested money for items such as food, clothing, travel expenses, and
gifts.

Our review found that CSD did not always have receipts to support how beneficiaries
used their personal needs monies. For personal needs requests of $100 or less, CSD
did not require the beneficiaries to provide any documentation (receipts) to show how
the monies were spent. During our audit period, CSD provided beneficiaries
approximately $8,000 for personal needs requests of $100 or less.

While CSD did have a policy that required submission of receipts for personal needs
requests in excess of $100, it did not consistently adhere to the policy. Specifically,
CSD did not collect receipts for 82 percent of the amount it disbursed for personal
needs requests that exceeded the $100 limit as shown in Table 2.

                                        Table 2
               Benefits Disbursed as Personal Needs Requests over $100
          Personal Needs        Number of     Total Amount of Percent of Total
             Requests          Transactions     Transactions   Transactions
         Receipts Provided           5             $1,046           18%
        Receipts Not Provided       18             $4,787            82%
                Total               23             $5,833           100%

SSA requires representative payees to keep accurate and complete records to show
how benefits are used. 10 Receipt maintenance is a safeguard CSD should have in
place for all personal needs requests regardless of the monetary value to verify that
items purchased by beneficiaries were reasonable, that is, the items purchased were
needed and appropriate for the beneficiary.




9
 Personal needs checks are paid to beneficiaries or to others on behalf of beneficiaries. Generally, the
beneficiaries pick up and sign that they have received their personal needs checks at the CSD office.
10
     20 C.F.R. §§ 404.2065 and 416.665.
Page 5 - Michael W. Grochowski

CSD Policy Changes for Personal Allowances and Needs

During the course of our review, CSD implemented new policies that require
beneficiaries who receive personal allowance or personal needs checks of $50 or more
to provide receipts to support how the monies were spent. CSD also notified nursing
homes that supporting documentation must be provided on a monthly basis for personal
allowances for beneficiaries residing in the facility.

CSD’s new policies regarding personal allowances and personal needs requests
provide improved oversight of how beneficiaries spend personal allowance and
personal needs monies. However, CSD did not consistently follow its previous receipt
maintenance policies. Therefore, lowering the threshold for receipt maintenance will
only be effective if CSD adheres to its new policies and collects the requested receipts
from the beneficiaries or nursing home facilities.

BANK ACCOUNT NOT PROPERLY TITLED

The bank account used by CSD was not titled in accordance with SSA instructions
because it did not reflect ownership of the account by SSA beneficiaries. Specifically,
the bank account currently used by CSD for SSA beneficiary funds is titled “Community
Services Dept.” This title does not reflect ownership of the account by SSA
beneficiaries. According to SSA instructions, a representative payee may establish
collective checking and savings accounts to hold monies belonging to multiple
beneficiaries. 11 However, to protect beneficiaries’ funds, the account title must show
that the representative payee has only a fiduciary interest in the account. 12 CSD stated
it was unaware the bank account was not properly titled and plans to re-title the
account.

The improper titling of the bank account results in beneficiary funds being underinsured.
The Federal Deposit Insurance Corporation (FDIC) insures bank deposits up to
$100,000 per individual account. FDIC provides additional coverage of $100,000 per
individual for collective bank accounts if the relationship between the account holder
and its clients is properly shown in the account title. 13 FDIC recognizes a claim for
insurance coverage based on a fiduciary relationship only if bank deposit account
records clearly define the relationship. 14 As of August 2005, the bank account balance
for SSA beneficiaries was approximately $453,000. Since the bank account is not
properly titled, beneficiary funds are underinsured by $353,000, the difference between
the bank account balance and the FDIC insured amount.


11
     POMS GN 00603.020.
12
     POMS GN 02402.055.
13
     12 C.F.R. § 330.5.
14
     12 C.F.R. § 330.5(b)(1).
Page 6 - Michael W. Grochowski

CONCLUSION AND RECOMMENDATIONS
CSD generally had adequate internal controls for the receipt and disbursement of Social
Security benefits. However, we found that CSD did not maintain adequate
documentation to support beneficiary expenses and did not title the bank account in
accordance with SSA’s instructions. During the course of our review, CSD
strengthened its policies over receipt maintenance; however, the new policy will only be
as strong as its ability to enforce the collection of supporting documentation for those
expenses.

We recommend SSA instruct CSD to:

   1. Maintain sufficient documentation to show that personal allowance and personal
      needs monies are used in the best interest of the beneficiaries.

   2. Title its checking account to reflect beneficiary ownership interest.

AGENCY AND REPRESENTATIVE PAYEE COMMENTS
SSA and CSD agreed with our recommendations and reported that appropriate actions
were implemented. See Appendix D for the full text of SSA’s comments and Appendix
E for the full text of CSD’s comments.




                                             S
                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Representative Payee Responsibilities
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – Representative Payee Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
CSD      Scott County Community Services Department
FDIC     Federal Deposit Insurance Corporation
OASDI    Old-Age, Survivor, and Disability Insurance
POMS     Program Operations Manual System
RPR      Representative Payee Accounting Report
RPS      Representative Payee System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                        Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include: 1

•     Determine the beneficiary’s current needs for day-to-day living and use his or her
      payments to meet those needs;

•     Conserve and invest benefits not needed to meet the beneficiary’s current needs;

•     Maintain accounting records of how the benefits are received and used;

•     Report events to the Social Security Administration (SSA) that may affect the
      individual’s entitlement or benefit payment amount;

•     Report any changes in circumstances that would affect their performance as a
      representative payee;

•     Provide SSA an annual Representative Payee Accounting Report to account for
      benefits spent and invested;

•     Return any payments to SSA for which the beneficiary is not entitled;

•     Return conserved funds to SSA when you are no longer the representative payee for
      the beneficiary; and

•     Be aware of any other income Supplemental Security Income beneficiaries may
      have and monitor their conserved funds to ensure they do not exceed resource
      limits.




1
    20 C.F.R. § 404, subpart U, and § 416, subpart F.
                                                                      Appendix C

Scope and Methodology
Our audit covered the period September 1, 2004 through August 31, 2005. To
accomplish our objectives, we:

•   Reviewed applicable Federal regulations, the Social Security Act and Social Security
    Administration (SSA) policies and procedures pertaining to representative payees.

•   Contacted SSA regional office and field office staffs to obtain background
    information about the Scott County Community Services Department (CSD)
    performance.

•   Obtained from SSA’s Representative Payee System (RPS) a list of individuals who
    were in CSD’s care as of August 31, 2005 or who left CSD’s care after
    September 1, 2004.

•   Obtained from CSD a list of individuals who were in its care and had received SSA
    funds as of August 31, 2005 or who left its care after September 1, 2004.

•   Compared and reconciled the RPS list to CSD’s list to identify the population of SSA
    beneficiaries who were in the CSD’s care from September 1, 2004 through
    August 31, 2005.

•   Reviewed CSD’s internal controls over the receipt and disbursement of Social
    Security benefits.

•   Randomly selected a sample of 50 beneficiaries from a population of
    503 beneficiaries in CSD’s care from September 1, 2004 through August 31, 2005.

•   Performed the following tests for the 50 randomly selected beneficiaries:

    - Compared and reconciled benefit amounts received according to the CSD’s
      records to benefit amounts paid according to SSA’s records.

    - Reviewed the CSD’s accounting records to determine whether benefits were
      properly spent or conserved on the individual’s behalf.

    - Traced a sample of recorded expenses to source documents and examined the
      underlying documentation for reasonableness and authenticity.

•   Interviewed a non-random sample of 10 beneficiaries to determine whether their
    basic needs were being met.


                                           C-1
•   Reviewed the Representative Payee Accounting Reports (RPR) for 27 of the
    50 beneficiaries in our sample to determine whether CSD properly reported to SSA
    how benefits were used.

•   Reviewed a non-random sample of four Representative Payee Applications (Form
    SSA-11-BK) to evaluate the completeness and appropriateness of the information
    provided on the applications.

We determined computer-processed data to be reliable for our intended use. Further,
any data limitations were minor in the context of this assignment, and the use of the
data should not lead to an incorrect or unintentional message. We tested certain data
elements of data extracts generated from the Agency's RPS. We completed tests to
determine the completeness, accuracy and validity of the data. These tests allowed us
to assess the reliability of the data and achieve our audit objectives.

We performed our fieldwork in Kansas City, Missouri and Davenport, Iowa, between
September 2005 and January 2006. We conducted our audit in accordance with
generally accepted government auditing standards.




                                         C-2
                                                                             Appendix D

Agency Comments
May 23, 2006

Signed Draft Report (A-07-06-16040) Scott County Community Services - Kansas City
Response


Thank you for the opportunity to comment on the attached OIG Draft Audit Report for Scott
County Community Services Department. The Kansas City Region agrees with the
recommendations outlined on the draft report. Regional and field office staff had a conference
call with the payee to further discuss the policy related to OIG’s recommendations. As a result,
the payee has already implemented a different process for controlling receipts to maintain better
control of their expenditures.

Staff with questions may contact Kathy Kazee, Center for Programs Support at 816-936-5643.


                          /s/

                      Michael W. Grochowski
                                                                            Appendix E

Representative Payee Comments

May 16, 2006

Subject: Audit Response


We received a copy of the draft audit report on April 24, 2006. Our office understands the
objectives of the audit and the need for the audit.

Scott County Community Services has taken many steps over the past two years so as to prevent
another incident of theft. During the actual audit, your staff gave suggestions and clarified
policies for us. We have revised our internal policies regarding needed documentation to support
expenses. We know this may be difficult for some of our clients due to limited cognitive ability,
but we continue to look for new ways to get the needed documentation. Staff have created files
and envelopes to help the clients when returning with receipts. We understand the importance of
being responsible for all funds and ensuring funds are used in the best interest of the
beneficiaries. A supervisor in our office is monitoring the documentation requirements. We
have had contact with the bank regarding the account used to hold the beneficiary funds and how
to rename it. We appreciate the input and suggestions from your staff during the audit. We
really want to make our Representative Payee Program the best it can be.



Lori A. Elam

Scott County Community Services Director

Davenport, Iowa
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division (816) 936-5591

   Ron Bussell, Audit Manager (816) 936-5577

Acknowledgments

In addition to those named above:

   Karis Gaukel, Auditor

   Deborah Taylor, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-06-16040.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
Scott County Community Services Department
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
